<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                         WEDNESDAY, MAY 4, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:21 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein and Alexander.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF HON. THOMAS P. D'AGOSTINO, UNDER SECRETARY 
            FOR NUCLEAR SECURITY AND ADMINISTRATION
ACCOMPANIED BY:
        ANNE HARRINGTON, DEPUTY ADMINISTRATOR, NUCLEAR NONPROLIFERATION
        ADMIRAL KIRKLAND DONALD, DEPUTY ADMINISTRATOR, NAVAL REACTORS
        DR. DONALD COOK, DEPUTY ADMINISTRATOR, WEAPONS ACTIVITIES

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Good afternoon, ladies and gentlemen, 
and welcome to the Energy and Water Development Subcommittee's 
oversight hearing on the National Nuclear Security 
Administration's (NNSA) fiscal year 2012 budget request.
    NNSA has requested $11.8 billion for fiscal year 2012. It 
is an increase of $1.1 billion, or 10.2 percent, more than the 
fiscal year 2011 level. I think in a sense, they are an 
endangered species because they are probably the only one, 
Senator Alexander, that is going to get this kind of a raise. I 
noted all of the smiles on their faces when they came into the 
room. This is, in fact, the largest increase to NNSA since it 
was established 11 years ago.
    This increase also follows another record-breaking increase 
of $813 million, or 8.2 percent, in fiscal year 2011. Based on 
the 2012 budget request, NNSA's budget would grow by about $2 
billion over 2 years.
    The budget increase presents a number of opportunities 
including:
  --accelerating efforts to secure all vulnerable nuclear 
        materials by the end of fiscal year 2013 to reduce the 
        threat of nuclear terrorism;
  --extending the life of nuclear weapons currently in the 
        stockpile;
  --replacing or upgrading aging infrastructure needed to 
        ensure the safety, security, or reliability of nuclear 
        weapons; and
  --designing nuclear reactors that will operate for 40 years 
        without refueling for Ohio Class ballistic missile 
        submarines.
    Now, with these opportunities also come some challenges. 
Regarding nonproliferation, the goal announced in April 2009 to 
secure all vulnerable nuclear materials in 4 years has 
accelerated nuclear security efforts.
    I would like to highlight a few recent achievements over 
the last 2 years. NNSA has removed 960 kilograms of highly 
enriched uranium, enough nuclear material for 38 nuclear 
weapons. NNSA has removed all highly enriched uranium from six 
countries. One of these countries was Libya. Given the recent 
unrest in Libya, the presence of this dangerous nuclear 
material in an unstable part of the world would have increased 
the risk of nuclear terrorism. Removing highly enriched uranium 
from six countries in 2 years is much faster than one country a 
year that NNSA has averaged in the last 13 years. NNSA has also 
completed security upgrades at 32 buildings in Russia 
containing weapons usable materials.
    Now, despite this progress, stockpiles of nuclear weapon 
materials around the world are still vulnerable to theft. In 
particular, all of the publicly known cases of theft of weapons 
usable nuclear material were perpetrated by insiders. 
Corruption and insider threats are endemic in many parts of the 
world, including Russia. That places unsecured weapons usable 
nuclear weapons in great jeopardy.
    I would like to discuss how NNSA has addressed this threat 
for a moment. Regarding nuclear weapons activities, I am 
concerned about your ability to develop reliable costs and 
schedule estimates for complex nuclear infrastructure projects. 
You plan to build three new facilities that will each exceed $3 
billion in costs, and in some cases may exceed $6 billion--the 
Chemistry and Metallurgy Research Facility at Los Alamos, the 
uranium processing facility at Y-12, and the pit disassembly 
and conversion facility at Savannah River. NNSA plans to spend 
$682 million on these three projects alone in fiscal year 2012, 
and will reach a peak of $1.1 billion by fiscal year 2014. New 
cost estimates for these facilities are three times more than 
the original estimates. So, we need to discuss this.
    NNSA has a long history of underestimating budget needs and 
increasing cost projections because of design schedule, design 
changes, and schedule delays. If the costs for these facilities 
increase further, I am concerned that it could harm higher-
priority missions, such as life-extension programs and 
increased weapon surveillance. NNSA must demonstrate to the 
Congress that it can effectively manage these complex projects 
and complete them on time and on budget.
    Modernizing our infrastructure on time and on budget, 
however, is not enough. NNSA must clearly demonstrate how this 
new infrastructure will not only enhance the safety, security, 
and reliability of our nuclear weapons, but also help reduce 
the size of the stockpile.
    The new START Treaty was a step in the right direction by 
reducing the size of our actively deployed nuclear weapons to 
1,550. However, we still maintain 5,100 nuclear weapons. A 
major justification for investing in new infrastructure is to 
reduce the hedge; that is, the weapons we hold in reserve in 
case an unforeseen problem occurs with their reliability and 
performance.
    NNSA must do a better job explaining how these multi-
billion dollar facilities and major investments in experimental 
facilities, such as the National Ignition Facility, will help 
us draw down the stockpile further.
    As you know, Mr. D'Agostino, this is important to me. You 
are asking for a lot of money, so the performance has to be 
there to back up this additional money in reduction of nuclear 
weapons.
    Joining us today to explore these important national 
security issues is Thomas P. D'Agostino, the Administrator of 
the National Nuclear Security Administration. Senator 
Alexander, I want you to know I have the highest respect for 
him. We had substantial classified briefings on the prior 
effort on the Reliable replacement Warhead program and, before 
that, on the proposal for increased nuclear weapons, plutonium 
pits, advanced weapons concepts, and on and on. He has always 
been an absolute straight shooter, and I really, really prize 
that. So, I know what you say is the truth, and I very much 
appreciate that.
    Joining Mr. D'Agostino is Dr. Donald Cook, the Deputy 
Administrator for Weapons Activities; Anne Harrington, the 
Deputy Administrator for Nuclear Nonproliferation; and Admiral 
Kirkland Donald, Deputy Administrator for Naval Reactors. So, 
thank you all for taking time to be here today, and let me turn 
to Senator Alexander for his comments.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thank you, Senator Feinstein. As always, 
it is good to work with you and to see you. And thank you for 
our very accomplished witnesses for being here. I look forward 
to your testimony.
    I have three or four points I would like to make.
    Number one, if Senator Inouye and Senator Cochran were 
here, I would say--and if they come I will say--that most of 
NNSA's responsibility are in support of the U.S. military, and 
this appropriation ought to be treated in part like Defense 
spending. And that will become increasingly important as we 
make budgets over the next several years because when we have a 
Government that is collecting $2.2 trillion and spending $3.7 
trillion, we have a lot of tough decisions to make. And we 
have, as the Senator said--the Chair said--we have a 
significant increase in a--in nuclear modernization, for 
example. We agreed on that. The President agreed with that in 
connection with the vote of the new START Treaty, which I 
supported. I think it was a wise treaty. But at the same time, 
we do not want our nuclear weapons to begin to resemble a 
collection of wet matches, and they will not, given the plan 
that is laid out here.
    So, that is my first point, Madam Chairman, that I think as 
we talk with Senators Inouye and Cochran, that when allocations 
are made, that this spending should be defense spending and not 
be competing with National Labs, other environmental clean-up, 
et cetera.
    Number two, I would like to follow up on Senator 
Feinstein's point about management of projects. Probably the 
area where we in the Senate have not done as well as we should 
have is in the area of oversight. That really is a true 
function of the Congress, especially of the appropriations 
subcommittees. I mean, it is our job really to understand 
issues. We work hard on that, but we get pulled in many 
different ways and do not have a chance to do that as much as 
we should.
    And that should be particularly true with the Department of 
Energy (DOE) and with this part of DOE because it is just full 
of multi-billion dollar projects. I just left a meeting with 
Secretary Chu. We were talking about environmental management 
projects, which are a different part of DOE. But there, he has 
got massive projects, and when we are spending too much, there 
are difficult decisions. We have got to clean up radiation. We 
have got to clean up mercury. But if we can save $1 billion 
here or $1 billion there, that money can go to National 
Laboratories. It can go to research for energy. It can go to 
environmental clean-up. It can go to a whole variety of areas.
    So, I hope that I can support the chairman and that we can 
vigorously assist you in taking a fresh look at project 
management as we go through this period of reduced spending. In 
fact, we are going to have to if we are going to have the money 
to do what we need to do.
    Third, I have a list of about $20 billion of your major 
NNSA projects. And it would be nice to talk about ways to 
figure out what is it really going to cost, and then can it 
stay that way? I remember while I was running for Governor, a 
group in Knoxville wanted a road built. And I asked the 
chairman of the Chamber of Commerce, well, how do you propose I 
do that if I am elected? He said, well, I would get the best 
possible person to run it, to agree on a plan and meet with him 
once a month, and see if you are following the plan. Well, I 
was elected. I got that person to come be the transportation 
commissioner. We met once a month. The road got built. So, 
maybe we need to make sure that we get designs that we agree 
with, cost amounts that we agree on, and have monthly report 
sessions to make sure that we are on schedule or not on 
schedule. Maybe we can be of assistance in that way.
    Fourth, that leads me to some questions I will be asking 
during my question time about whether it is a good idea, Mr. 
D'Agostino, to spend time consolidating a contract at Oak Ridge 
and Pantex, or Y-12 and Pantex, whether you could really save 
more money and more of your management energy doing that and 
causing the contractor to work on that, or whether you would be 
better off working on all these big projects I was just talking 
about. So, we will get into that.
    Finally, I am delighted to see--delighted to talk a little 
bit about naval reactors. It has always puzzled me, Senator 
Feinstein, about why we seem to do so well with the naval 
reactors and we cannot build a nuclear power plant in the 
United States. In fact, one of my proposals, and I was only 
partly in jest, that the way to have clean electricity in the 
United States, the largest amount of it, is just to build seven 
nuclear-powered destroyers and plug them in around the country 
where the population centers are, and have, you know, add 
15,000 or 20,000 megawatts of clean electricity. We could 
probably get that done in a short period of time. We are able 
to--I mean, both have been safe. We have never had a fatality 
either in connection with a naval reactor or with a civilian 
reactor. But I think we have a lot to learn from naval reactors 
that we might transfer to our civilian reactor program. So, I 
will look forward, Admiral, to talking about that and what you 
think we might learn from that as well as supporting your 
efforts.
    So, Madam Chair, this is--and ought to be--a fascinating 
hearing. I look forward to the testimony and thank you for your 
time.
    Senator Feinstein. Thank you very much, Senator, and I look 
forward to working with you. We did so on Interior, and we will 
do so on this subcommittee as well.
    Let me turn to you now, Mr. D'Agostino. Will you be making 
the comments for everybody at the table?
    Mr. D'Agostino. Yes, Madam Chairman.
    Senator Feinstein. Okay. Please proceed.

               SUMMARY STATEMENT OF THOMAS P. D'AGOSTINO

    Mr. D'Agostino. Thank you. Madam Chairwoman, Ranking Member 
Alexander, thank you for the opportunity to address this 
subcommittee today. But more importantly, thank you for your 
continued support of the NNSA and the 35,000 men and women 
working across our enterprise to keep our country safe, protect 
our allies, and enhance global security. We could not do this 
work without strong bipartisan support and engaged leadership 
from the Congress.
    As I come before you today, the capability NNSA offers to 
the Nation, and indeed the world, are on display in real time. 
Just last week, I had the opportunity to travel to Nevada to 
visit the Remote Sensing Laboratory. For 7 weeks, the talented 
and dedicated men and women at the Remote Sensing Laboratory 
had been working with their colleagues from across the 
enterprise to support the response to the devastating 
earthquake and tsunami that struck Japan on March 11, 2011. 
They had been providing critical information to our interagency 
colleagues and to our partners in Japan. Of course, our 
thoughts and prayers are with the Japanese people during this 
very difficult time, but I was honored to have the opportunity 
to thank our men and women personally and directly last week 
for their outstanding work.
    Our ability to respond to this crisis is the latest example 
of the vital and diverse role we play in implementing the 
President's nuclear security agenda and of the need to invest 
in the future of our enterprise. This budget request seeks the 
funds required to make these investments.
    As I see it, the budget request can be broken down into 
three key themes. First, we're investing in the future. 
President Obama has requested $7.6 billion for our weapons 
activities account to support our effort to leverage the best 
science and technology in the world to maintain our nuclear 
deterrent. This will enable us to enhance our surveillance of 
the stockpile, continue to design modern facilities that we 
need to maintain our Nation's expertise in uranium and 
plutonium processing and research, and proceed with key life 
extension programs for our weapon systems.
    A critical part of that is the life extension program for 
the W78 warhead. Consistent with the policies in the 
President's Nuclear Posture Review, we have submitted a request 
to this subcommittee and the House Energy and Water Development 
Subcommittee to begin studying the requirements for the W78 
life extension, including the option for interoperability of 
the nuclear explosive package with the Navy's W88 warhead. I 
strongly encourage this subcommittee to approve this request.
    Investing in a modern enterprise is critical to our 
stewardship program, but it also supports the full range of 
NNSA's nuclear security missions, which brings me to the second 
key theme that this budget request shows, and that is 
implementing the President's nuclear security agenda. As 
President Obama has said in his speech in Prague in April 2009, 
the threat of a terrorist acquiring and using a nuclear weapon 
is the most immediate and extreme threat we face. Preventing 
the spread of nuclear weapons and keeping dangerous materials 
out of the hands of terrorists is a vital national security 
priority.
    To address that threat, we are requesting $2.5 billion in 
2012 and more than $14.2 billion over the next 5 years for our 
nuclear nonproliferation programs. This will provide the 
resources required to meet the commitment secured during the 
2010 Nuclear Security Summit.
    To power the nuclear Navy, President Obama has requested 
$1.1 billion for NNSA's naval reactors program. This will allow 
us to continue the design work on the propulsion unit for the 
Ohio Class Replacement Submarine in order to meet the Navy's 
required procurement date of 2019. It includes critical 
investments in a modern and sustainable spent fuel, spent 
nuclear fuel infrastructure at the naval reactor site in Idaho 
National Laboratory. And finally it seeks the resources to 
refuel the land based prototype in upstate New York.
    Madam Chairwoman, I realize that this subcommittee has many 
competing requirements and that this request comes at a time of 
acute financial stress for our entire country. But I believe 
nothing is more important than ensuring our Nation's security. 
It is my responsibility to assure you that we can manage these 
increases wisely.
    That brings me to the third key theme outlined in this 
budget request, and that is our commitment to improve the way 
we do business and manage our resources.
    For us, improving our project management is part of the 
implementing, achieving our mission, and implementing the 
President's nuclear security agenda. To better ensure that we 
bring these major projects to completion on time and on budget, 
we will ensure that we have qualified project managers leading 
our major projects. We will set costs and schedule baselines on 
construction projects when design work is 90 percent complete, 
and we will subject these estimates to rigorous independent 
reviews.
    We are partnering with our Management and Operations (M&O) 
partners to streamline our governance model to devote more 
resources to critical mission work while maximizing safety and 
security at our sites. We are making sure that we have the 
right contracting strategy in place. We are continuing to find 
innovative ways to save money across the enterprise. For 
example, since 2007, our Supply Chain Management Center has 
used new technologies and pool purchasing power to drive 
efficiencies across our sites. The result has been more than 
$213 million in auditable cost savings.

                           PREPARED STATEMENT

    All of this is part of our effort to create one NNSA, a 
true partnership between all of our programs and all of our 
partners to fulfill a common mission. Taken together, these 
steps will ensure that we have a modern, 21st century nuclear 
security enterprise that is safer, more secure, more efficient, 
and organized to succeed. That is the vision outlined in this 
budget request. It supports the full range of NNSA missions, 
and, more importantly, it represents a critical investment in 
the infrastructure, the people, the science, technology, and 
engineering required to fulfill our missions. I look forward to 
working with the members of this subcommittee to help make that 
vision a reality.
    With that, we would be happy to take any questions you may 
have.
    [The statement follows:]

               Prepared Statement of Thomas P. D'Agostino

    Thank you for the opportunity to present the fiscal year 2012 
President's budget request for the National Nuclear Security 
Administration (NNSA). This budget request will allow the NNSA to meet 
its commitments to the American people and our international partners 
to provide for nuclear deterrence, to reduce nuclear dangers around the 
world, and to provide the capabilities to address the broader national 
security challenges of the 21st century.
    The vision of NNSA is to make the world a safer place. NNSA's 
mission is to enhance global security through nuclear deterrence, 
nonproliferation, counterterrorism, naval nuclear propulsion, and to 
support national leadership in science and technology.
    Recognizing the economic challenges facing our Nation and the 
budget pressures being felt throughout the Federal Government, the 
President demonstrates through this fiscal year 2012 budget request his 
strong commitment to the nuclear security of our country and our allies 
by proposing an unprecedented investment in NNSA's mission. This 
investment is a commitment to recapitalize the nuclear security 
enterprise and do it in a way that makes sense.
    The fiscal year 2012 President's budget request provides $11.78 
billion to invest in a modern, 21st century nuclear security 
enterprise, implement the President's nuclear security agenda, and 
improve the way the NNSA does business and manages its resources.
    The fiscal year 2012 request represents an increase of 5.1 percent 
more than the $11.2 billion requested for fiscal year 2011, reflecting 
a commitment to investing in a modern enterprise that can support the 
full range of nuclear security missions. The request highlights the 
vital role NNSA plays in implementing the President's nuclear security 
agenda and the broad, bipartisan consensus that has developed over the 
last 2 years regarding the role NNSA plays in enhancing our Nation's 
security and the resources needed to get the job done.

                        INVESTING IN THE FUTURE

    Secretary of Energy Chu and I work closely with Secretary of 
Defense Gates and other Defense Department (DOD) officials to ensure 
that NNSA remains focused on a strong interagency partnership that 
meets our national security requirements and promotes NNSA's 
sustainability. As a result, the President's request includes $7.6 
billion for the weapons activities appropriation, an 8.9 percent 
increase more than the President's fiscal year 2011 request and a 19.5 
percent increase over the fiscal year 2010 appropriation to invest in 
the future of the nuclear security enterprise. These resources will 
support, among other things, the operation and construction of the 
modern research facilities needed to do cutting-edge science and 
attract the next generation of nuclear security experts. It continues 
implementation of the President's commitment to invest $85 billion over 
the next decade to sustain the nuclear deterrent and to modernize the 
infrastructure that supports it, as well as to implement the agenda 
outlined in the Nuclear Posture Review, the Stockpile Stewardship and 
Management Plan and the updated section 1251 report submitted to the 
Congress.
    NNSA's budget request also includes associated out-year projections 
in the Future-Years Nuclear Security Program (FYNSP) that identifies 
resources needed to meet the continuing requirements for significant 
long-term investments in the deliverables, capabilities and 
infrastructure of the enterprise.
    These resources will help us invest in a modern, 21st century 
Nuclear Security Enterprise that can sustain the stockpile and support 
our full range of nuclear security missions. With these investments, 
NNSA will be able to continue to move toward an enterprise that is 
safer, smaller, more secure, more efficient, more sustainable, and more 
adaptable.
    The request includes an increase of 3.1 percent more than the 
fiscal year 2011 level to protect and advance the scientific 
capabilities at the U.S. national security laboratories and a 21 
percent increase for infrastructure improvements, including continuing 
work on the Uranium Processing Facility at the Y-12 National Security 
Complex and the Chemistry and Metallurgy Research Replacement facility 
(CMRR) at Los Alamos National Laboratory. These capital projects are 
key for ensuring safe, secure, and reliable uranium and plutonium 
capabilities for nuclear security and other important missions.
    To power the nuclear navy, the budget request includes $1.2 billion 
for the NNSA's Naval Reactors program, an increase of 7.8 percent more 
than the fiscal year 2011 President's request. The programs in this 
appropriation support the U.S. Navy's nuclear fleet. Specifically, the 
request supports the administration's decision to recapitalize the sea-
based strategic deterrent. The Ohio Class ballistic submarines, the 
most survivable leg of the Nation's strategic deterrent, are reaching 
the end of their operational life. The request will enable Naval 
Reactors to continue reactor plant design and development efforts begun 
in 2010 for procurement of long-lead reactor plant components in 2017, 
in support of Navy procurement of the first Ohio Class submarine 
replacement in 2019. Providing the Ohio Class replacement a life-of-
the-ship reactor core will require substantial advances in 
manufacturing technology to provide a new cladding and a new fuel 
system. The request also supports the refueling of a land based 
prototype reactor, providing a cost-effective test platform for these 
new technologies.
    Increased funding is also requested for the Spent Fuel Handling 
Recapitalization Project, which will replace the more than 50-year old 
Expended Core Facility as the location for naval spent nuclear fuel 
receipt, inspection, dissection, packaging, and secure dry storage. 
Fiscal year 2012 funding continues the conceptual design for the 
facility, equipment, and related systems, as well as continues meeting 
the National Environmental Policy Act's requirements and project 
oversight (e.g., engineering procurement and construction management). 
Detailed project engineering and design work will commence in fiscal 
year 2013 and construction will commence in fiscal year 2015.
    These vital projects will replace facilities that date back to the 
dawn of the cold war with modern facilities that can support the full 
range of nuclear security missions--including maintaining the nuclear 
deterrent, preventing proliferation, securing vulnerable nuclear 
material, powering the nuclear Navy and providing the Nation with the 
best emergency response and counterterrorism capabilities possible. 
They will also ensure that NNSA can continue to work with the 
Department of Defense and other interagency partners to keep the Nation 
safe.

          IMPLEMENTING THE PRESIDENT'S NUCLEAR SECURITY AGENDA

    The fiscal year 2012 budget request also provides the resources 
required to continue to work toward the President's commitment to 
secure vulnerable nuclear material around the world within 4 years, a 
key national security goal. The budget request includes $2.5 billion 
for Defense Nuclear Nonproliferation in fiscal year 2012 and $14.2 
billion over the next 5 years to reduce the global nuclear threat by 
detecting, securing, safeguarding, disposing and controlling nuclear 
and radiological material worldwide, as well as promoting the 
responsible application of nuclear technology and science.
    This request reflects the significant accomplishments of NNSA's 
nuclear nonproliferation programs in the past year, and seeks the 
resources needed to complete the President's goals. This budget request 
provides the resources required to meet commitments secured from 
international partners during the 2010 Nuclear Security Summit to 
remove all remaining highly enriched uranium (HEU) from Belarus, 
Ukraine, Mexico, and other countries by April 2012 and to work with the 
Defense Department to improve international nuclear security 
cooperation.
    The request of $2.5 billion is a decrease of 5.1 percent from the 
fiscal year 2011 President's request, but an increase of 19.6 percent 
more than the fiscal year 2010 appropriation. This 5.1 percent or $138 
million decline flows logically from the fiscal year 2011 request which 
was ``front loaded'' to accelerate the effort to secure vulnerable 
nuclear materials within the President's stated timeframe. Even with 
this decrease, the NNSA's budget request remains consistent with our 
overall strategy to ensure that programs supporting the President's 
commitment to lead an international effort to secure all vulnerable 
nuclear materials around the world in 4 years are fully funded in the 
request. The Global Threat Reduction Initiative efforts related to 
radiological material, as well as the International Nuclear Material 
Protection and Cooperation program's activities to enhance the ability 
of our foreign partners to detect nuclear smuggling at border crossings 
and in megaports have been prioritized to accommodate accelerated 
nuclear material lockdown efforts. The decrease in the request for 
Fissile Materials Disposition reflects the completion of long-lead 
procurements for the MO<INF>X</INF> and Waste Solidification projects, 
as well as the decision to wait to request additional funds associated 
with the $400 million United States pledge for the Russian program 
until agreement is reached on milestones for the program.

                  IMPROVING THE WAY NNSA DOES BUSINESS

    Consistent with the President's commitment to deliver on critical 
national nuclear security missions at the best value to the American 
taxpayer, the fiscal year 2012 budget request will enable NNSA to 
continue to improve the way it does business and manages resources. The 
President's budget request for Federal oversight and staff included in 
the Office of the Administrator appropriation is $450.1 million, an 
increase of 0.4 percent more than the fiscal year 2011 request and an 
increase of 7 percent more than the fiscal year 2010 appropriation.
    NNSA recognizes that the fiscal year 2012 budgetary investments 
come at time of severe economic challenge for our country and a renewed 
commitment to reduce the deficit. To maintain bipartisan support for 
the NNSA programs, the enterprise has a responsibility to work together 
as ``One NNSA'', a fully integrated enterprise that operates 
efficiently, is organized to succeed, that performs its work 
seamlessly, and speaks with one voice. This ``One NNSA'' needs to be a 
true partnership among Headquarters, the Site Offices and our 
Management and Operations (M&O) partners.
    Changing the way NNSA does business is an important part of the 
effort to transform a cold war nuclear weapons complex into a 21st 
Century Nuclear Security Enterprise. NNSA simply cannot expect the 
Congress to support major investments in its programs and its 
facilities unless the enterprise can demonstrate that the Department of 
Energy is a responsible steward of the taxpayer's money.
    NNSA needs to do better, which is why the Federal sector leadership 
is working with its M&O partners to streamline the enterprise 
governance model in order to devote more resources to critical mission 
work and maximize NNSA's ability to complete its mission safely and 
securely.
    NNSA is making sure that it has the right contracting strategy in 
place. The agency is improving its project management by, for example, 
ensuring that NNSA no longer sets cost and schedule performance 
baselines on construction projects until design work is 90 percent 
complete, ensuring it has the right leadership teams in place, and 
performing independent cost reviews. NNSA has also created a new policy 
and oversight office for managing major projects. The new office 
reports directly to the Administrator. This will help ensure that 
project management gets the high-level focus it requires.
    We are already beginning to see results. NNSA is increasingly 
recognized for its efforts to be an effective steward of tax dollars. 
For example, since 2007, NNSA's Supply Chain Management Center has 
saved $213 million by using pooled purchasing power to drive 
efficiencies across the enterprise. In the last year NNSA's Kansas City 
Plant won the prestigious Malcolm Baldrige Award, America's highest 
honor for innovation and performance excellence. Two other NNSA 
programs were recognized with Project Management Institute (PMI) 
awards. In 2010, the Global Threat Reduction Initiative became the 
first Federal project to receive PMI's Distinguished Project Award, 
while the National Ignition Facility at Lawrence Livermore National 
Laboratory received PMI's project of the year.

                               CONCLUSION

    The Nation has carefully evaluated its security needs in an 
international landscape that remains challenging and uncertain. NNSA 
has charted a path forward that shows our unwavering commitment to the 
Nation's security and enhances our formidable capabilities to address 
broader security challenges.
    The NNSA is a technically based organization with a strong nuclear 
heritage that serves as the base for our contribution to a wide range 
of national security solutions. NNSA is rooted in the management of our 
Nation's nuclear weapons stockpile and the application of nuclear 
energy for naval propulsion. Additionally, NNSA capabilities support a 
broad range of U.S. and international activities that address existing 
dangers, identify and prepare for future challenges, and advise the 
U.S. Government and our international partners on nuclear security 
matters.
    This budget request takes the NNSA into the next decade and 
strengthens the capabilities that are themselves integral elements of 
our nuclear deterrent. The challenge is to retain the capabilities that 
continue to be essential, and to identify and develop those needed for 
the future.

    Senator Feinstein. Thank you very much. I appreciate that.
    Data provided by DOE and your entity shows that there are 
more full-time equivalent (FTE) staff working at the three 
nuclear weapons labs--Los Alamos, Livermore, and Sandia--than 
at the height of the cold war. In 1987, there were 12,160 FTEs 
when the United States had 23,575 nuclear weapons. In 2009, the 
labs had 13,977 FTEs when the United States had one-third the 
number of nuclear weapons, namely 5,113.
    So, you have had 15 percent more FTEs to maintain a nuclear 
stockpile that is 78 percent smaller. Could you please tell us 
why?
    Mr. D'Agostino. Yes, ma'am. I think it's due to a couple of 
reasons, and I--if it is possible, I would like for my 
colleagues to also answer--follow on with me behind me.
    I think one of the main reasons is we have an inherently 
different program now than we had during the height of the cold 
war. During the height of the cold war, we were in the process 
of constantly cycling and training and designing, develop, 
test, deploy, and take out systems, so there was a constant 
flow in production. And that type of a process allows a very 
efficient design through production through finishing off a 
life-cycle process, if you will, in our weapon systems. And we 
are obviously doing underground nuclear tests.
    Now, we are relying on science a lot more, if you will, to 
ensure that we can take care of these--the stockpile without 
underground testing. That is a completely new era that we have 
had to, in fact, invent, if you will, with our laboratories to 
develop the tools, deploy the tools. Tools in this case I am 
talking about are computers, are large, experimental 
facilities, like the dual access radiographic hydro test 
facility at Los Alamos, the National Ignition Facility at 
Lawrence Livermore, the Z machine at Sandia--develop these 
tools in order to do a lot more subcritical experiments and 
basic science and material experiments and use the codes to do 
this. And this requires a tremendous amount more, in my view, 
of scientists and engineers in order to achieve that 
capability.
    So, the job, I think, in many respects is a harder job, and 
is not directly attributable one-to-one to the size and number 
of the stockpiles.
    I think the second major reason is we have, in my view, 
particularly as we look at the data, an increase in the 
recognition of how these laboratories contribute to a much 
broader range of national security and nuclear security work 
than they did 20, 30 years ago. We are obviously--in many 
cases, our response, the DOE's response, to the Macondo oil 
spill--the BP oil spill is what it has been called--much of 
that technology came from three national security laboratories 
themselves. I would ask Don to add.
    Dr. Cook. I think it is a good question. Madam Chairman, if 
I could add to what the administrator has said, I would 
emphasize that we do have a broader range of work for multiple 
agencies. The national weapons labs especially are very 
important capabilities. They are accessed routinely these days 
by the Departments of Defense, Homeland Security, and Director 
of National Intelligence, in addition to DOE.
    With regard to the stockpile, it is true that we have the 
oldest stockpile we have ever had.
    Senator Feinstein. Well, that is going to continue.
    Dr. Cook. Yes. Yes.
    Senator Feinstein. I mean you are just going to build the 
stockpile.
    Dr. Cook. I think that is a clear statement. It is going to 
continue. It is also currently the smallest stockpile we have 
had since the days of the Eisenhower administration. The fact 
that it is the oldest and smallest means now that as we go 
forward, while we may continue to reduce warhead numbers, we 
must modernize, at the same time, the deterrent warheads and 
the infrastructure. And those are key contributors to the size 
of the workforce that we have.
    Senator Feinstein. Just as an aside to my colleague, you 
know when I was mayor of San Francisco--it has been that long 
ago--we computerized the city. I had the computer companies in 
and talked to them because it was a big contract. We thought 
oh, it would save the city money. I think it was a substantial 
number of employees, in the thousands; I cannot remember what. 
So, we did it. Do you think it reduced employments? No. It 
increased employments. So, you know, I think there is that 
factor that technology does not necessarily reduce employees 
qualified to handle the technology.
    But since it is just the two of us, and I will give the 
ranking member as much time as he wants, I want to just ask one 
other question right now.
    Senator Alexander. Please go ahead.
    Senator Feinstein. I expressed some concern about the risk 
of insiders stealing or helping to steal nuclear materials, and 
I think the large number of sites around the world magnifies 
that threat. For example, Russia and countries in the former 
Soviet Union alone have more than 230 buildings at more than 
130 sites that store weapons usable nuclear materials.
    So, the question is, what is NNSA doing to consolidate 
nuclear materials to a much smaller and easier to protect 
number of sites and buildings, especially in Russia?
    Mr. D'Agostino. If I could start and then ask Anne 
Harrington to follow on.
    Senator Feinstein. Please.
    Mr. D'Agostino. But we have a very active program with the 
Russians to not just secure material at their sites, but we 
have a sustainability component with the Ministry of Defense in 
Russia. We have essentially completed the security work there, 
and they have agreed and are following up on making sure that 
those security upgrades are maintained and to have them out 
into the future.
    With Rosatom, which is what--a little bit more on the 
civilian side or a little bit more equivalent to the NNSA, we 
have an active program of upgrading their sites there, and we 
have more of a cost-share arrangement to do on the work there.
    There is more work that has to be done in Russia, and 
Anne's team is working actively to partner with our colleagues 
there to make this happen.
    Senator Feinstein. Let me just stop you. Does it need 230 
buildings at 130 sites?
    Mr. D'Agostino. In fact, this is one of the concerns that 
we, together with the Russians, acknowledge that the more 
material that you have and more sites there is, the harder it 
is to protect. In this country, we have undertaken our own 
efforts for material consolidation because in the long run it 
is cheaper to protect material at fewer sites.
    Senator Feinstein. How many sites do we have in comparison?
    Mr. D'Agostino. Well, the 230 sites are--we have our 7 main 
sites, but within those 7 sites we are looking to move material 
out of the Lawrence Livermore Laboratory to reduce the security 
footprint and move some of that material into some of our other 
sites because we think it is not just safer to protect, but it 
is also cheaper. We hope to be saving some security dollars as 
a result of that.
    Senator Feinstein. We will mark that down.
    Mr. D'Agostino. Anne, do you want to add anything, please?
    Ms. Harrington. I would just add that it is a matter of our 
program policy that any country in which we work, we do 
encourage the consolidation of materials. And, in fact, that is 
what the 4-year effort is really aimed at, is not just 
consolidating materials, but consolidating and then removing 
the materials permanently, and then providing physical security 
upgrades in that interim period between when we negotiate the 
agreement and physically remove the material.
    Senator Feinstein. Ma'am, let me just interrupt you again. 
I understand that April 2010 was the halfway mark of the goal 
of securing all vulnerable nuclear materials in 4 years. Are 
you on track to secure it all in 4 years?
    Ms. Harrington. Well, April 2010 would have been 1 year, so 
approximately now would be 2 years from April, yes.
    Senator Feinstein. Well, now it is 2 years.
    Ms. Harrington. Yes, correct. We are about halfway at this 
point.
    Senator Feinstein. So, you have 2 more years.
    Ms. Harrington. Correct. I have to admit the continuing 
resolution situation that we have been in up until recently 
this year has presented some real challenges in terms of 
maintaining our schedule. We have deferred some other 
activities in order to keep these removals on schedule. We will 
have perhaps a little slippage, but not out of calendar years. 
We certainly are on track right now with Ukraine, Mexico, and 
Belarus to meet those high-level nuclear security summits 
commitments to remove all materials by the time we hit the 2012 
summit. So, we feel confident right now that we can make up----
    Senator Feinstein. You could make that 2-year goal.
    Ms. Harrington. We are on schedule to do that right now.
    Senator Feinstein. One quick question, are you prioritizing 
the sites?
    Ms. Harrington. Absolutely.
    Senator Feinstein. So, there is a list of priorities?
    Ms. Harrington. Correct.
    Senator Feinstein. Could we see that list please?
    Ms. Harrington. We can get that to you, yes.
    Senator Feinstein. Okay. Thank you very much.
    Mr. Vice Chairman? You go ahead, and then we will go back 
and forth.
    Senator Alexander. Okay. Thanks, Madam Chairman.
    Mr. D'Agostino, I would like to have just a little 
conversation with you about big projects and bringing them in 
on time and on budget. I mean, you have got a former mayor here 
and a former Governor here, so we are frustrated by the lack of 
executive opportunities we have in the U.S. Senate. So, this is 
a chance for us to weigh in.
    But you have got some really big things going on. I mean, 
the Uranium Processing Facility (UPF) is estimated to cost $4.2 
to $6.5 billion. That is a pretty big range. I mean, and a few 
years ago it was $1 billion, and then it was $2 billion, then 
it was $3 billion, and it is still going up. The Chemistry and 
Metallurgical Research Facility at Los Alamos, the range for it 
is $3.7 to $5.8 billion, and that is a massive range. And then 
we can go down the list of other big projects. Mixed oxide 
fuel, which is nearly $5 billion. The Life Extension Projects 
that is part of our nuclear modernization, those are $3 billion 
and $4 billion. So, these are big, big projects. And I remember 
the excitement that happened in Oak Ridge when the Spallation 
Neutron Source came in on time under budget, although it was a 
massive physics project.
    So, what can we do to be helpful to administrators, such as 
yourself, to set up a process by which we can take these big--I 
mean, I can add up at least $20 billion of projects over the 
next few years just in your area, and come up with a goal and a 
design, and then together we will see if we can stick to that 
goal and design and see if we can do it in a way that does what 
we need to do, but at the least possible cost.
    I know that is your objective, but sometimes that is hard 
to do in Government. What can we do to help you achieve that?
    Mr. D'Agostino. Senator Alexander, first of all thank you. 
I appreciate the opportunity to talk to executives in this 
fashion and get your insight as well.
    I think one of the main things as a subcommittee that you 
can do is give us the time to interact in sessions such as this 
and in other sessions where we can talk about, on a fairly 
regular basis, our progress, our plans, and our steps on 
meeting our, essentially, our collective objectives of 
providing the Nation the capability. The objective is not to 
spend all that money; that is not the objective. The objective 
is to get the capability for the Nation, as you said, in a 
fashion that gets it on time, on budget, and what the country 
needs to move forward. So, time with you, Sir, with the 
subcommittee as a whole, with you and your staff, and 
reporting, you know, on the appropriate basis is very helpful 
to us.
    Senator Alexander. But would not the first thing to do to 
be--to get a design and a cost estimate that you can live with? 
Would that be the first thing? How do we get to that point?
    Mr. D'Agostino. I basically see three broad steps that we 
are in the process of taking and either have completed or need 
to finish off on. One is getting our policy--project management 
policies correct. We have in the Department, most recently 
within the last year, and now are implementing in our projects, 
whether they are small dollar projects or billion dollar 
projects, a couple of key principles. And that is, we do not go 
off and declare what something is going to cost until we 
actually know what it is we are building and we have that 
design largely completed. Once that baseline is set, then it 
sticks. That would be one thing.
    The second thing is annual detailed independent peer review 
analysis. One of the things that we have learned from the 
Office of Science, which talked about the spatial neutron----
    Senator Alexander. Analysis of what, of the construction?
    Mr. D'Agostino. Of the construction project--of the project 
itself, independent peer reviews on an annual basis of the 
projects themselves, so this is something we are committed to 
doing. And, in fact, for two of these large facilities that we 
were just talking about, that is actually under way. My 
principal deputy, Neile Miller, sitting behind me, has started 
this type of an interaction and dialogue with the Defense 
Department, people outside of the NNSA and even outside of DOE, 
to bring project experts and other experts that independently 
check our work on a regular basis. That is another important 
policy element that we have in place.
    The next important thing is bringing the right people to 
bear on the problem. One of the great things that Neile Miller 
has brought to the table is looking at and recognizing that 
over the next 10 years, project management is our--has to be 
our key focus in this organization because that will define, 
first of all, can we----
    Senator Alexander. Well, let me not be rude and interrupt.
    Mr. D'Agostino. Yes.
    Senator Alexander. Let me go--get you to slim that answer 
down a little bit. I mean, what are the three steps you need to 
take? Do you not first need to design--you first you need a 
policy.
    Mr. D'Agostino. We have to get the policy right.
    Senator Alexander. Right.
    Mr. D'Agostino. We have to get a design----
    Senator Alexander. Then you have to get a design.
    Mr. D'Agostino [continuing]. That we have actually checked 
on, that has been independently checked to be true and been 
validated--independently checked and validated.
    Senator Alexander. Then you need a cost estimate, is that 
fair?
    Mr. D'Agostino. That cost estimate and the design will go 
together.
    Senator Alexander. So, those come together.
    Mr. D'Agostino. We have a schedule.
    Senator Alexander. So, once you have a policy and a cost 
estimate design, then you are ready to go, is that----
    Mr. D'Agostino. Then we are ready to go----
    Senator Alexander. Right.
    Mr. D'Agostino [continuing]. And then we will come back 
and----
    Senator Alexander. And then it is the regular review of 
your progress toward a goal.
    Mr. D'Agostino. Right.
    Senator Alexander. And our involvement in that--well, lets 
just--take these two examples of the UPF--I mean, there you 
have got $4.2 billion to $6.5 billion in the Chemistry and 
Metallurgical Building at Los Alamos, $3.7 to $5.8 billion. How 
soon before we get--is the policy set on those two projects?
    Mr. D'Agostino. Yes, it is, to get 90 percent design on 
those projects, yes, Sir.
    Senator Alexander. Okay. When we do we get 90 percent 
design on those two projects?
    Mr. D'Agostino. October 2012, is that right, Don?
    Dr. Cook. Yes. It is the end the end of fiscal year 2012.
    Senator Alexander. Yes, the end of next year----
    Mr. D'Agostino. Yes.
    Senator Alexander [continuing]. We will have our policy and 
our cost-estimate design at some number.
    Dr. Cook. That is correct. We are now just a bit beyond 50 
percent full engineering design on each of the two projects, 
chemistry and metallurgy research, UPF. Another step we have 
taken is to require actually the parent companies to integrate 
the design teams, look for common buys, gloves boxes we will 
use in both facilities, develop a plan of phasing that allows 
us to build--these are, after all, new nuclear builds. They are 
the hardest categories to replace capabilities really that have 
exceeded 60 years of age.
    Senator Alexander. Right. So by the end of next year there 
is a design and a cost estimate. But between now and then, what 
do we need to know about what you are doing to help you get a 
cost estimate you can live with? I mean, what do we need to be 
doing?
    Mr. D'Agostino. Well, Sir, you need--one of the things you 
will need to know is that we are not just resting on input we 
are getting from our M&O contractors. We are having these 
independently checked on one case, and we are probably going to 
have two independent checks because these are such large 
facilities. The one that we are doing with our colleagues in 
the Defense Department, and we will commission another 
independent check ourselves separately from that because one of 
the things I want to get us in the habit is under promising and 
over delivering, and when we make a commitment we deliver on 
that commitment.
    Senator Alexander. Well, we can continue this discussion 
another time. But to me, this boils down to a pretty simple 
thing, from our point of view, a very complex operation from 
yours. But it is to define the points where we get a real cost 
estimate and a real design and we say okay, that is it, you 
know. And we are then going to probably embark on a 3-, 5-, 6-, 
or 7-year period, right, of construction.
    Mr. D'Agostino. Yes, Sir.
    Senator Alexander. And so, during that period of time we 
should be having quarterly discussions about are you on 
schedule? If you are not, why not, so that we do not wind up 
and find that a $4 billion cost estimate ends up being a $7 
billion----
    Mr. D'Agostino. We would be happy to come up quarterly 
during the period of time as we get into construction in order 
to let you know the progress. We will be getting ourselves 
monthly updates on earned value as well. So, I think rolling it 
out on a regular basis so you have confidence that we are on 
track is----
    Senator Alexander. Madam Chairman, that sounds awfully 
primitive for me to suggest, but it is almost a matter of being 
that simple from our--I mean, if every 3 months all they have 
to report is we are under budget and we are on schedule, then 
the meeting might last 10 minutes. If it is not, why, it might 
take a longer period than that.
    Senator Feinstein. I understand that, right.
    Senator Alexander. So, I have some other questions, but I 
think I will stop now. Thank you for your courtesy.
    Senator Feinstein. Okay, all right. Let me just put my 
philosophy on the table, which I think you already know. I am 
not for new nuclear weapons. I will do everything I can to 
prevent the development of a new nuclear weapon. I want to see 
them gone all over the world, and I will support any program to 
get that done, and I think I have been fairly consistent. We 
have had this discussion before, and you know where I stand.
    Okay. As you know, the JASONs have found that most 
plutonium pits have a lifetime of at least 100 years. It is my 
understanding that once again you are planning to manufacture 
new plutonium pits for weapons undergoing life extensions. The 
question is why.
    Mr. D'Agostino. I will start and then I will pass to Dr. 
Cook to add to that with some details.
    The JASONs did validate the analysis that we have performed 
at our laboratories that pit aging is not the issue that we 
once thought it was 8--7, 8 years ago or so. And that is 
actually a great thing because had it been the case where 
plutonium aging was one of the things that we would have to 
more aggressively go after, we would be looking in--at a 
situation--looking at a different type of a problem on the need 
to have a higher pit production capacity.
    The plutonium production pit sustainment effort itself that 
Don's program runs has a large part, in my view, couple of 
components to it. One is bringing back and maintaining a 
capability, maintaining a very small set of expertise in order 
to--for the Nation to be able to respond to unknown technical 
changes as a result of dealing with this very unique material 
that is a manmade material that we have a fairly limited data 
set of knowledge on. It has been around for 60 plus years or 
so, and that is about all the information we have on it. So----
    Senator Feinstein. Let me cut to it. If the pits are all 
good, why do you want to manufacture new pits?
    Mr. D'Agostino. Don.
    Dr. Cook. Again, I think it was a very good question. Let 
me try to give a quick technical answer.
    JASON determined that the lifetime of the plutonium parts 
in pits are good for 100 years or 80 was their conclusion. Due 
to plutonium decay, which is by alpha--that is helium--that 
interstitially causes a potential problem.
    The actual problems that we have go well beyond that. We 
have the plutonium pits in the midst of the chemistry of high 
explosives with binders that decompose just like plastics in 
cars exposed to the sun. The plutonium is radioactive; the 
decay goes on. That degrades all of the plastics, all of the 
cushions, all of the things that are around the pit. And it 
also causes corrosion in the pit.
    So, on the one hand, JASON is absolutely correct about what 
they said, but the difficulty is that as weapons get older, 
much of the chemistry in a radiolitic environment starts to 
take over. And that has been the problem.
    Senator Feinstein. Yes.
    Dr. Cook. And we have invested many of the people and time 
in surveillance to actually pin down in which weapon systems we 
are seeing those kinds of problems, and we can predict how long 
they are good for. Those are not good for 100 years.
    Senator Feinstein. Well, I think I would like to have a 
discussion with the JASONs, and particularly SIDREL. I have 
discussed this in the past, and I would like to do it again, 
and I would like to do it with both of you present----
    Dr. Cook. I absolutely support that.
    Senator Feinstein [continuing]. And Senator Alexander, 
because I hear different things. It is fair to say that you all 
wanted to develop new nuclear weapons. That's what RRW 
essentially did. It was killed because of it, and I do not want 
to see, you know, RRW in disguise right now.
    Mr. D'Agostino. We would be glad to come up and talk to 
you, Senator, in a session. The key here are no new pit nuclear 
component designs and we are very consistent with that. I think 
Sid and I will be on the same page with this, but we would like 
to be able to show you personally.
    Senator Feinstein. Because what you have always led me to 
believe is that modernization is really for the protection of 
the workers who work around some of the chemicals that are 
extraordinarily dangerous and may be deteriorating. But I was 
under the express belief, based on some of our discussions, 
that all of these new pits that were requested some years ago 
were really forming the foundation of a new nuclear weapon, not 
just a modernized nuclear weapon.
    Mr. D'Agostino. Senator, I want to make sure I am clear on 
what our plan is on plutonium sustainment so there is no 
question about it.
    What we are planning on doing is manufacturing a pit design 
that we currently have in the stockpile of a particular warhead 
and wanting to--because those we have very few of. And we 
believe that in order to reduce the size of the stockpile, that 
particular pit design, which already exists--it is not a new 
pit--is going to be the pit design that will allow us to 
potentially consolidate the number of different types of 
warheads and allow us to reduce the overall number of warheads.
    Senator Feinstein. Okay.
    Mr. D'Agostino. That is the key.
    Senator Feinstein. So, how many pits are you talking about?
    Mr. D'Agostino. On the plutonium sustainment? Don, what--
are there 20 per year?
    Dr. Cook. The answer in terms of our capability----
    Mr. D'Agostino. Yes.
    Senator Feinstein. No, amount total to manufacture under 
this proposal.
    Dr. Cook. Let us see. We have been required by the 
Department of Defense, by U.S. Strategic Command, and by the 
requirements that we have laid to have a capability that is not 
less than 50 pits per year nor more than 80 for the----
    Senator Feinstein. So, are you saying to produce 50 to 80 
new pits a year?
    Dr. Cook. That to have not less than 50 and not more than 
80 is the----
    Senator Feinstein. Produced each year?
    Dr. Cook. That capability requires, yes, that is correct.
    Senator Feinstein. For a total of how many new pits?
    Dr. Cook. That is the number per year, and so if one 
calculates the number of years you would get that. It is 
consistent with the----
    Senator Feinstein. Calculated how many years?
    Dr. Cook. It is consistent----
    Senator Feinstein. Somebody must know how many pits you 
plan to make.
    Dr. Cook. Yes. It supports a stockpile of 3,000 to 3,500 
weapons in aggregate, the total as the Nuclear Posture Review 
and the national policy has laid out. Not that many will be on 
active alert, but that is the requirement for the total number 
including those----
    Senator Feinstein. So, what you are telling me is that the 
administration's design, or the Government's design, is that 
there are essentially 3,500. Well, I will not use the word new 
nuclear weapons, but with new pits essentially within what 
period of time?
    Dr. Cook. I--you know, I do not want to say that every one 
of those is a new pit. The capability that we are putting in 
place has that capability to manufacture that number of pits 
per atom--per annum, and the comparable number of secondaries 
in UPF at Y-12, if required. Overall, the capabilities support 
the stockpile as envisioned in the Nuclear Posture Review, the 
new START requirement. And the plan to continue to reduce the 
number of nuclear weapons----
    Senator Feinstein. To what?
    Dr. Cook. All together.
    Senator Feinstein. If you had these pits, how much would 
you reduce the stockpile by? I mean, this is important.
    Mr. D'Agostino. Yes, it is very important. We have a report 
called the Stockpile Stewardship Management Report. There is a 
section in it that is classified which goes system by system, 
and it talks about taking--there are two numbers there. One is 
obviously bigger than the other one. I would say just quick 
math off the top of my head, there is about, if you will, once 
the capability is in place, maybe a 40 percent reduction in the 
size of the stockpile.
    Senator Feinstein. I do not want you to do it off the top 
of your head as much as I think you are terrific.
    Mr. D'Agostino. Yes.
    Senator Feinstein. This is a big thing for me.
    Mr. D'Agostino. Sure.
    Senator Feinstein. I mean, it is one of the reasons why I 
am sitting right here--why I run for this office, because I 
want my grandchildren and their children to grow up in a 
nuclear-free world. I am going to do everything I can to be 
helpful to get there. So, this is not something that I am just 
going to fluff off and forget about.
    Mr. D'Agostino. Madam Chairman, I would say we have the 
details that we would like to share with you in the report that 
we provided, and we will go over that in great detail with you, 
with our Defense Department colleagues to show about the types 
of changes that we are--that we collectively are planning on 
making in our proposal, if you will, which this budget is a 
part of. It is--budget----
    Senator Feinstein. Because the way you have always sold 
your program to me is that if we do this, we can reduce the 
stockpile by more.
    Mr. D'Agostino. Yes, ma'am, that is the case.
    Senator Feinstein. You gave me some numbers before, but I 
did not think they were very sufficient. So, I want to know 
with this proposal and all this money you are getting, by how 
much will the nuclear stockpile be reduced?
    Mr. D'Agostino. We will be glad to go over that with you 
precisely by--with actual numbers and warheads.
    Senator Feinstein. Okay. Thank you.
    Senator Alexander.
    Senator Alexander. I have three questions, and they do not 
necessarily require long answers. But I would like to ask all 
three questions----
    Senator Feinstein. Go ahead.
    Senator Alexander. Mr. Administrator, I am a little puzzled 
by your single-mindedness on consolidating the contracts that--
at Y-12 and Pantex. I mean, they do not have overlapping 
missions. They both seem to be operating efficiently right now. 
You have got all these big projects to supervise and try to do 
as efficiently as possible. GAO has been studying the 
consolidation proposal, and a preliminary report suggests it is 
not a great opportunity for savings.
    Would it not be better to defer any decision about 
consolidation until we get the GAO report in July, and instead 
focus more of your time on working with the existing contractor 
to find savings and on other big projects where you might find 
savings?
    Mr. D'Agostino. Senator Alexander, we are committed to 
working with the existing contractor, and have worked with the 
existing contractor to identify savings, and have gotten--
received some input from the existing contractor, who is doing 
a very good job.
    We have been looking at ways to make sure that we run our 
enterprise in the most efficient and integrated fashion as 
possible. One of our views is that we are looking to have an 
enterprise, if you will, not eight independent sites make 
maximizing their capability at their sites. And, in fact, I 
have studied this for about 3 years. We did not just study it 
ourselves. We asked an external consultant known as Navigant 
Consulting, to take a look at what opportunities there are 
specifically at each of these sites, and what could the Federal 
Government realize from the standpoint of efficiency 
improvements, couched in dollar terms, of course, but our goal, 
of course, is to drive those resources into mission critical 
work and have the workforce realigned from that standpoint.
    So, we have done a study ourselves. We, in fact--we 
commissioned a completely independent study, which showed many 
hundreds of millions of dollars per year as an opportunity over 
the next 10 years that could be saved--many hundreds of 
millions of dollars.
    I have not seen the GAO study. I recognize that there was a 
press report I think that just came out recently. But what I 
will say is--and I am anxious to see it frankly because it is 
important for us, and this is why we are proceeding 
methodically to make sure we get input from the contractor 
community before we make a final decision. A decision will rest 
essentially with the--the Secretary and I will go through and 
we are going to conduct our external checks to make sure that 
things are done in an appropriate manner.
    This is probably, you know, one of the more important 
decisions we will be making this year, and I am committed to 
making sure that we have all the data. If the GAO has uncovered 
new information, I want to make sure that gets factored into 
our analysis and the like.
    I do believe in discussions that are very sensitive to the 
particular point on disruption of potential contract 
competition might have on very important work that is ongoing. 
And we have looked ahead at when we expect to be at the 90 
percent design points and what it will take to independently 
check those. And, as Dr. Cook mentioned, the end of next year 
is roughly a period of time that--where that comes to play. And 
it is clear we probably would not want to have any changes 
prior to that point because as--because of the disruption 
piece.
    But we have managed contract changes in the past, and we 
know it can be done in a way that does not impact the workforce 
and does not disrupt, more importantly, the workflow that 
happens there as well.
    Dr. Cook, if you have any other insights on this.
    Dr. Cook. I would just say we are paying particular 
attention to making sure that we are not doing anything to 
destabilize the UPF team or any of the M&O teams. They continue 
to do very high-quality work.
    With regard to the cost savings, it is not our objective to 
reduce the employment levels. It absolutely is our objective to 
increase productivity, not just through consolidation if 
appropriate of contracts, but the linking of the deliverables 
through all that we do. And we are studying that fairly 
intensely as you might normally expect.
    Senator Alexander. Thank you. The new mixed oxide fuel that 
will be produced at Savannah River--do you have any concerns 
about its safety if it is used in Tennessee Valley Authority 
reactors? And should it be less expensive fuel for the 
reactors, thus saving the Tennessee Valley Authority (TVA) rate 
payers money?
    Mr. D'Agostino. I will start, and then I will ask Dr. 
Harrington to follow.
    We have done, and there have been done a number of studies 
with respect to mixed oxide fuel. It is the material--fuel 
material that has been around for a while and has been in many 
tens of reactors worldwide and operating for more than 20 
years. So, I think the safety aspect of this is well 
established.
    We, of course, will continue to study this with potential 
buyers at TVA, for example, to make sure that they have 
complete and full access to any information they need to make 
sure that they are confident in that.
    Senator Alexander. My question simply is, is it safe to use 
it, and will it be cheaper----
    Mr. D'Agostino. Yes.
    Senator Alexander [continuing]. To use it?
    Senator Alexander. The answer is, yes, it is safe to use.
    Ms. Harrington. Yes, it is. And I think on the question of 
cost, obviously this is a nonproliferation program; it is not a 
commercial fuel program, so there is that difference. And the 
cost will be no more than and perhaps less than other 
commercially available fuel.
    Senator Alexander. Thank you. Madam Chairman, I have one 
other question, but I will defer to you for----
    Senator Feinstein. No, please. I think I have satisfied my 
questions, and I am going to follow up on the items of interest 
to me.
    Senator Alexander. I have got an idea you were going to do 
that.
    But my question is simply for the Admiral, and it goes back 
to what I said. The Navy operates small reactors, and it has 
about the same number of small reactors that we have civilian 
reactors around the country, all of which are large. In the 
civilian area, we speculate--I know Dr. Chu has talked about 
this--that a small reactor might be a useful way for the United 
States to move ahead with nuclear power, maybe 125, 150 
megawatt reactors. What can the Navy's experience with small 
reactors teach us about how we might move ahead in the civilian 
side with small reactors?
    Admiral Donald. Yes, Sir. Thank you for the opportunity to 
be here today.
    Senator Feinstein. Could you qualify small reactors?
    Senator Alexander. Well, a small reactor--a typical one 
like the new one, Watts Bar reactor being built at--by TVA is 
1,180 megawatts. A small reactor, such as the one that B&W 
proposes to build would be about 125 megawatts. And 125 
megawatts, Dr. Chu has talked about a small reactor of that 
size would be a lot cheaper to build, and it would be about 
enough power to operate the entire Oak Ridge complex, for 
example. The city, the laboratory, and the Y-12 facility might 
all operate with that one small reactor. The argument for it is 
it could be made in the United States, shipped to Oak Ridge or 
Alaska, wherever they want to use them. And if they needed two, 
they could put two side by side or three side by side. That is 
the argument for it.
    But with the Navy having all this experience since the 
1950s, so successful with small reactors, I wonder--if we are 
taking advantage of your experience or if this is one silo over 
here and this is another over here.
    Admiral Donald. Well, Sir, I think you really have to go 
back to the very beginning of the commercial nuclear power 
program. Where it started was with naval reactors. Amarico, we 
are building the shipping port plant in Pennsylvania. Really 
that design stemmed from what he had learned from building the 
Nautilus and subsequent submarine plants and the technology--
basic pressurized water reactor technology, which is one of the 
options for small modular reactors. That really was founded in 
the Naval Reactors Program and has been developed through the 
Naval Reactors Program with collaboration in commercial 
industry either directly or indirectly. We have had engagement 
with commercial industry over our history in design work and 
things of that sort. Indirectly there are a significant number 
of employees working in commercial nuclear who started in the 
Navy nuclear program. So, many of the standards and 
technologies and things that they learned in our program, they 
have transitioned into the commercial sector.
    With specific focus on the small modular reactors that are 
being discussed today, in fact Babcock and Wilcox, B&W, who 
is--has one of the options for a small modular reactor in 
power, I believe it is called, it just so happens that they 
also are one of our major suppliers, and they do much of our 
work. In fact, about 70 percent of our industrial base is 
really B&W type work that is done. So, there is some leveraging 
there of lessons that they have taken from building our plants, 
obviously with protecting our security, our classified 
information, but translating that into what could be a viable 
small modular reactor. So, I think that is a good synergy there 
if that is to be made to happen.
    I think there are those who--some have considered should we 
just transition naval reactors directly into small modular 
reactors, and the fact of that is that is probably not a good 
idea. Because of the standards that we build them to, we have 
to have shock standards that are significantly above what a 
commercial reactor would have to operate at.
    Our operating profile is very different from a commercial 
plant, so we design them for different ends, and they actually 
would likely not be cost effective for a commercial 
application. But again, the application and the synergy between 
the industrial base in the commercial world and the industrial 
base in the naval world I think provides opportunity for them 
to learn from what we have learned and provide opportunities in 
small modular reactors, if the commercial industry sees them as 
being feasible.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Alexander. Thank you, Madam. Thank you, Admiral. 
Thank you, Madam Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

    Question. The National Ignition Facility (NIF) was supposed to 
demonstrate ignition by September 2010. However, the goal of achieving 
ignition has been postponed by more than 1\1/2\ years because of 
unexpected scientific and technical challenges.
    How confident are you that the NIF will achieve ignition by June 
2012? If this goal is not achieved by then, what does it mean for the 
future of the ignition program?
    Answer. Pending any unforeseen major technical challenges, I am 
confident in NIF's ability to achieve ignition by fiscal year 2012. NIF 
is currently operating on a schedule where as by the end of fiscal year 
2011, all of the experiments and capabilities required for the NIF to 
begin ignition experiments will be complete, and the goal is to 
demonstrate ignition, or ``gain equal to one'', by fiscal year 2012. 
``Gain equals one'' means the capsule will produce more energy than the 
amount of energy delivered to the target, also called the hohlraum.
    An National Nuclear Security Administration (NNSA) panel chaired by 
the Under Secretary for Science, Dr. Steve Koonin, has been formed to 
advise on technical progress, and the most recent review showed that 
the National Ignition Campaign (NIC) is making excellent technical 
progress. The principal focus is to ensure that a rapid, yet 
reasonable, amount of progress is being made on completing the 
scheduled ignition efforts. The NNSA's major concern is to ensure that 
further delays do not occur, except as a result of presently unknown 
technical issues that might have to be resolved. Ignition is a major 
technical challenge and the present NIF work is a culmination of 
decades of research. Should any unforeseen major technical issues arise 
that could potentially impact the goal of achieving ignition by fiscal 
year 2012, NNSA will re-evaluate and adjust the goals of the NIC 
accordingly.
    Question. NNSA owns 43 million square feet of physical 
infrastructure.
    What plans does NNSA have in place to reduce the footprint of the 
labs and production facilities and reduce maintenance costs?
    Answer. NNSA is continuing its footprint reduction efforts within 
available funding. The fiscal year 2012 Stockpile Stewardship and 
Management Plan conveys NNSA's strategy to consolidate and modernize 
the Nuclear Security Enterprise.
    NNSA has actively been working to comply with the Energy and Water 
Development Subcommittee fiscal year 2002 conference report 107-258 for 
reduction of footprint. For the period 2002 through 2009 NNSA 
constructed 1,447,865 gross square footage and eliminated 3,700,620 
gross square feet of facility footprint. The net result of these 
efforts is elimination of approximately 2,252,755 gross square feet of 
the NNSA footprint. NNSA will continue working to meet this requirement 
by reducing excess facilities as funds allow and by using footprint 
reductions to ensure the offset requirement is met.
    Question. NNSA has been criticized over the last several years for 
failing to maintain an adequate surveillance program, which is 
essential for determining the health of the nuclear weapons stockpile.
    To what extent has NNSA improved its surveillance program and 
addressed the concerns of the JASONs, lab directors, and the Department 
of Defense (DOD).
    Answer. Surveillance activities are essential to enabling continued 
certification of the reliability of the stockpile without nuclear 
testing. Surveillance involves withdrawing weapons from deployment and 
subjecting them to laboratory tests, as well as joint flight tests with 
the DOD to assess their reliability. These activities allow detection 
of possible manufacturing and design defects as well as material 
degradation over time. NNSA continues to implement a surveillance 
program that builds on those core activities, which allows us to 
support the current state of the stockpile, detect in advance potential 
problems, and take remedial actions.
    NNSA has reviewed the stockpile surveillance program and its 
funding profile. Since fiscal year 2009, the surveillance budget has 
increased by 50 percent, from $158 million to $239 million. In the 
fiscal year 2012 budget, the President seeks to sustain this increase 
and a more robust surveillance program throughout the fiscal year NSP.
    With this increased funding, many improvements have been made on 
surveillance. NNSA increased the number of planned laboratory and 
flight tests from 48 in fiscal year 2010 to 74 in fiscal year 2011. The 
total number of planned major surveillance activities (including pit, 
canned subassembly, gas transfer systems, detonator cable assembly 
tests and disassembly and inspection) also increased from 276 in fiscal 
year 2010 to 432 in fiscal year 2011. In addition, surveillance 
activities supported the development of diagnostic capabilities at Y-12 
for critical components of the nuclear explosive package. These 
capabilities will aid the current W76-1 production and surveillance of 
other warheads in the stockpile. This increased testing rate and 
improved diagnostics continue to be supported in the fiscal year 2012 
budget request. Furthermore, NNSA has taken action to hire a 
Surveillance Senior Technical Advisor, supported by an appropriate 
staff through a newly developed Surveillance Governance structure to 
assure a cohesive program, enables a cost-effective program, and 
integrates surveillance activities across the nuclear weapons 
enterprise. Together, the increased funding, additional focus, and 
hiring of a senior surveillance engineer should address the concerns 
expressed by the JASONs, laboratory directors, and DOD.
    Question. The JASONs found that most plutonium pits in nuclear 
weapons have a lifetime of at least 100 years. However, NNSA is 
planning to manufacture new plutonium pits for weapons undergoing life 
extensions.
    Why does NNSA have plans to manufacture new pits? What are the 
advantages and disadvantages?
    Answer. The Nuclear Posture Review (NPR) found that in order to 
sustain a safe, secure, and effective U.S. nuclear stockpile, for as 
long as nuclear weapons exist, the United States must possess a modern 
physical infrastructure and a highly capable workforce with the 
specialized skills needed to sustain the deterrent and support the 
President's nuclear security agenda.
    In 2006, the Los Alamos National Laboratory and Lawrence Livermore 
National Laboratory reported that the majority of pits in the stockpile 
can have estimated ``lifetimes'' in excess of 85 years or more based on 
the best estimates of plutonium changes with aging. All nuclear weapons 
generally and primaries specifically have other components with much 
shorter shelf lives that have to be maintained or replaced on a more 
frequent basis. Finally, as recognized by the JASONs and NNSA, the 
science of plutonium aging is not complete. The uncertainties in these 
estimates are large and contain significant variables which may affect 
plutonium and pit lifetime that are not yet fully understood. As the 
weapons age, they must be maintained in order to assure their 
reliability and extend their lives. Throughout this maintenance or life 
extension process, NNSA is directed by National Security Presidential 
Directive 28 to look for opportunities to enhance the safety and 
security aspects of the weapon (while still meeting the military 
requirements originally established for the weapon). One of the ways to 
enhance both safety and security is to move toward a stockpile that is 
based on insensitive high explosives (IHE) instead of conventional high 
explosives (CHE). IHE-based weapons are safer in almost every 
environment across the Stockpile-to-Target Sequence. Should NNSA 
receive authorization to proceed toward a totally IHE-based stockpile, 
we will need the ability to either manufacture these previously 
designed and tested pits or perform rework on existing pits.
    The current facility that NNSA manages for producing plutonium pits 
requires modernization to continue maintaining a ``safe, secure, and 
effective'' stockpile in the future. The manufacturing capacity will 
need to be increased to meet the anticipated requirement of 50-80 pits 
per year by 2022. The aging infrastructure is being addressed through 
TA-55 reinvestment. Additional programmatic investments will be 
required to develop and sustain the workforce required to execute the 
program at TA-55 in the coming years. What we are doing now is an 
effort to create a sustainable plutonium pit manufacturing capacity at 
the PF-4 facility that will be able to support the body of work 
addressed in the fiscal year 2012 Stockpile Stewardship and Management 
Plan. Moreover, the PF-4 facility is an important component of the 
administration's effort to provide a sustainable Nuclear Security 
Enterprise. Such a facility is one of the enablers for the United 
States to shift away from retaining large numbers of nondeployed 
warheads as a hedge against technical failure or geopolitical surprise.
    The pit manufacturing capability being pursued for PF-4 will 
provide NNSA the ability to produce a limited number of new pits, up to 
80 per year, or to perform rework on existing pits--this does not mean 
that each year we will exercise the full capacity of the facility. PF-4 
will provide NNSA with the minimum capacity to support the President's 
plan to life extend the stockpile. Per the NPR, each life extension 
program will be conducted on a case-by-case basis and we will study 
options for ensuring the safety, security, and reliability of each 
nuclear warhead. Our scientists, engineers, and technicians will study 
the full range of life extension approaches, to include refurbishment 
of existing warheads, reuse of nuclear components from different 
warheads, and replacement of nuclear components. In any decision to 
proceed to engineering and development, strong preference will be given 
to the refurbishment and reuse approaches. However, we may not be able 
to meet some critical Stockpile Stewardship and Management Plan goals, 
such as increased safety, security, and reliability, using those two 
approaches. In such cases, replacement of nuclear components will be 
pursued, but only when specifically authorized by the President and 
approved by the Congress.
    Possessing the ability to manufacture plutonium pits provides many 
advantages to the Nation and to NNSA. We are able to exercise and 
retain the highly skilled workforce of scientists, engineers, and 
technicians central to a responsive manufacturing capability. Further, 
we retain the agility necessary to respond to technical or geopolitical 
issues in a timely manner, allowing us to retain a smaller hedge. The 
pit manufacturing and rework capability presents opportunities to take 
advantage of safety and security advancements to make the stockpile 
safe, secure, and reliable.

                            FOUR-YEAR EFFORT

    Question. April 2011 was the half way mark of the goal of securing 
all vulnerable nuclear materials in 4 years.
    Is NNSA still on track to achieve this goal in 4 years?
    Answer. NNSA is currently on track to complete the objectives 
outlined in its 4-year effort. NNSA's progress to secure and eliminate 
nuclear material is described in more detail in the classified ``Report 
to Congress on Securing Vulnerable Nuclear Material'' submitted jointly 
in April 2011 by NNSA and DOD. Although the focused 4-year effort ends 
in 2013, nuclear security is an enduring responsibility as long as any 
material exists, and NNSA programs will continue to be guided by the 
evolving threat environment.
    NNSA plays a major role in the international effort to secure the 
most vulnerable nuclear material around the world in 4 years, working 
in coordination with DOD, the Department of State, the Nuclear 
Regulatory Commission (NRC), other elements of the U.S. Government, and 
international partners. NNSA programs have made significant progress 
toward achieving key programmatic goals for securing and eliminating 
weapons-usable nuclear material. NNSA's accomplishments include the 
following:
  --Removed approximately 3,085 kilograms of weapons-usable highly 
        enriched uranium (HEU) and plutonium from countries around the 
        world, including 960 kilograms--enough material for 38 nuclear 
        weapons--since April 2009.
  --Completed security upgrades at 32 buildings containing weapons-
        usable material in Russia and initiated new insider threat 
        upgrades at 15 facilities in Russia since April 2009.
  --Completed shipments of spent fuel from Kazakhstan's BN-350 
        plutonium production reactor to a secure facility in eastern 
        Kazakhstan in 2010. The spent fuel contains enough HEU and 
        weapons-grade plutonium for 775 nuclear weapons.
  --Advanced efforts to establish Centers of Excellence (COE) for 
        nuclear security with China, India, Japan and the Republic of 
        Korea, working in coordination with DOD, NRC, and Department of 
        State. The COEs will provide national, regional, and 
        international training and workshops on nuclear security best 
        practices; demonstration of available and effective nuclear 
        security technologies; nuclear security research and 
        development; legal and regulatory frameworks; and bilateral 
        and/or regional nuclear security initiatives.
    Question. What specifically does NNSA hope to achieve at the end of 
those 4 years?
    Answer. NNSA has a number of programmatic goals in support of the 
broader international 4-year effort, including the following:
  --Complete the removal of approximately 3,615 kilograms of weapons-
        usable nuclear material cumulatively from sites around the 
        world by the end of 2013.
  --Complete Material Protection Control and Accounting (MPC&A) 
        upgrades at a cumulative total of 229 buildings with Category I 
        nuclear material by the end of fiscal year 2013. However, 
        security upgrades at additional buildings after 2013 may be 
        needed, as U.S. programs are guided by the evolving threat 
        environment.
  --Continue working with DOD, NRC, and the State Department to support 
        the establishment of Centers of Excellence for nuclear security 
        with key international partners.
  --Contribute to key global initiatives, including the Nuclear 
        Security Summit in 2012, the Global Initiative to Combat 
        Nuclear Terrorism, the implementation of United Nations 
        Security Council Resolution 1540, and the G-8 Global 
        Partnership.
  --Lead efforts to implement the fifth revision of the nuclear 
        security recommendations document INFCIRC/225, ``The Physical 
        Protection of Nuclear Material and Nuclear Facilities'', which 
        will ensure strengthened physical protection of nuclear 
        material and facilities worldwide.
    Question. How does NNSA prioritize to determine which nuclear 
materials in which countries are the most vulnerable and need to be 
secured first?
    Answer. NNSA prioritizes its efforts to secure and eliminate 
vulnerable nuclear material based on a number of factors, including 
nuclear material attractiveness (amount and form of the material), the 
existing site security conditions, the assessed country threat 
environment, and political opportunity.
    Question. What are the most significant challenges in securing the 
highest-risk materials?
    Answer. NNSA works with other countries to minimize the civilian 
use of HEU, eliminate unneeded weapons-usable nuclear material, and 
improve security of nuclear material by providing equipment and 
training. In many cases, getting direct access to facilities to carry 
out such work can be a challenging process. Sometimes, direct access to 
facilities is not possible or appropriate, and NNSA works with other 
elements of the U.S. Government on alternative approaches to improve 
security of nuclear material such as regional centers of excellence for 
nuclear security and support for global initiatives.
    In addition, these NNSA programs are voluntary in nature, so each 
country must first agree that it would like to cooperate with NNSA on 
nonproliferation activities. In some isolated instances, a country has 
decided that it does not wish to participate. In these instances, NNSA 
looks to other organizations such as the International Atomic Energy 
Agency to help facilitate nonproliferation efforts in that country.

                         MATERIAL CONSOLIDATION

    Question. What is NNSA doing to consolidate nuclear materials to a 
much smaller and easier-to-protect number of sites and buildings, 
especially in Russia?
    Answer. Under the International Nuclear Materials Protection and 
Cooperation Program (INMP&C), NNSA is continuously promoting the 
benefits of nuclear material consolidation with its partner countries 
and especially within the Russian nuclear complex. In May 2010, INMP&C 
held a Nuclear Material Consolidation Best Practices workshop, with 
presenters from the NNSA complex and the Rosatom complex to exchange 
lessons learned regarding the consolidation of nuclear materials. The 
NNSA, through INMP&C, has also hosted Russian officials, including the 
head of Rosatom, Sergei Kiriyenko, to tour the Highly Enriched Uranium 
Materials Facility at Y-12 and discuss the cost savings that will be 
achieved by conducting this major consolidation effort.
    It is standard operating procedure to evaluate intra-site 
consolidation at every Russian site participating in INMP&C cooperation 
and to support such consolidation when the sides can identify and agree 
to an effective approach. INMP&C has supported the removal of all HEU 
from one Russian site and has significantly reduced the number of 
buildings requiring protection by supporting the consolidation of 
nuclear material within sites in Russia. Moreover, INMP&C is currently 
supporting a large intra-site consolidation activity at one Russian 
site, and such activities are under consideration with several other 
Russian sites. In addition, U.S. project teams from INMP&C look for 
opportunities to transfer excess, nonweapons HEU out of facilities, 
thereby decreasing the amount of material requiring protection.
    The excess HEU transferred from sites is usually downblended into 
low-enriched uranium (LEU) under INMP&C's Material Consolidation and 
Conversion (MCC) Project. To date, that project has supported the 
downblending of almost 14 metric tons of nonweapons HEU to LEU. On a 
cost-sharing basis with Russia, the MCC Project is also supporting the 
creation of additional downblending capacity at one Russian site in 
order to increase the amount of excess nuclear material that can be 
consolidated and then downblended into LEU. For this activity, Rosatom 
will fund the additional downblending line, and the MCC Project will 
support the associated security requirements. This additional capacity 
is expected to become operational at the end of calendar year 2012. In 
addition, the MCC Project continues to support the downblending of 
returned Russian-origin fuel that has been consolidated from the FSU 
and other countries. The MPC&A management is currently discussing with 
Rosatom the potential to include additional excess material under the 
MCC Project, which would remove significant quantities of such material 
from four sites.

                         TECHNOLOGICAL SURPRISE

    Question. A national security concern is always technological 
surprise. In particular, the United States needs the best information 
possible on the nuclear weapons activities of foreign countries.
    What has NNSA done to increase our capabilities to monitor the 
nuclear weapons capabilities of other countries, such as Iran?
    Answer. NNSA has a long-standing research and development (R&D) 
program focused on improving U.S. nuclear security through the 
development of novel technologies to detect foreign nuclear weapons 
proliferation/detonation and verification of foreign commitments to 
treaties and agreements.
    Using the unique facilities and scientific skills of the NNSA 
Nuclear Security Enterprise as well as other DOE National Laboratories, 
in partnership with industry and academia, the program sponsors R&D to 
support U.S. nuclear nonproliferation policies and programs by closing 
technology gaps identified through close interaction with NNSA and 
other U.S. Government agencies and programs.
    Specifically, NNSA provides technical expertise and leadership 
toward the development of next-generation nuclear detection 
technologies and methods to detect foreign nuclear materials and 
weapons production. Through the development of new tools, technologies, 
and techniques designed for the detection, location, and analysis of 
global proliferation of nuclear weapons technology with special 
emphasis on verification technology and transparency measures, NNSA 
provides the Nation--both unilaterally and multilaterally--with the 
technical means to monitor foreign nuclear weapons programs.
    Question. How confident are you that the United States has the 
means to detect a nuclear weapons test in another country?
    Answer. NNSA, and its predecessor agencies, have more than 50 years 
of history in developing the leading technologies used by the United 
States to monitor and verify foreign nuclear testing. Working 
intimately with the Department of Defense and other U.S. Government 
agencies, NNSA develops and builds all space-based nuclear detection 
equipment. This equipment, which continuously monitors the globe, is 
operated by the U.S. Air Force for the Nation.
    Further, NNSA develops other leading-edge technologies, such as 
seismic sensors and radionuclide and particle collection systems for 
the detection of a foreign nuclear test. Like the space-based sensors, 
these ground-based systems are operated by the U.S. Air Force.
    Where applicable, and in keeping with the President's nuclear 
security agenda, NNSA transfers some of these technologies to 
international nuclear monitoring organizations, such as the 
International Atomic Energy Agency and Comprehensive Test Ban Treaty 
Organization.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester

    Question. Administrator D'Agostino, it's my understanding that the 
National Nuclear Security Administration (NNSA) shares jurisdiction 
over fusion energy research with the Department of Energy's Office of 
Fusion Energy Sciences (OFES). In Montana, the Plasma Physics Group at 
the University of Montana is currently conducting research with an 
emphasis on magnetic fusion. The University of Montana Plasma Physics 
Group and other university programs are researching fusion energy in 
conjunction with many of our National Laboratories including the 
Princeton Plasma Physics Laboratory, the Lawrence Livermore National 
Lab and the National Ignition Facility (NIF). I, and many others, are 
eagerly awaiting the results of the NIF full ignition tests this year.
    In 1980, the Congress passed an authorization bill that envisioned 
a demonstration fusion power plant by the year 2000. That clearly did 
not happen. Today, China, South Korea, and many European nations are 
investing in and advancing fusion energy research, with the hopes of 
commercialization. Commercialization of fusion energy could assist our 
Nation in achieving energy independence, and would undoubtedly lead to 
job creation in whichever nation accomplishes it.
    What are the resources in fiscal year 2011 that NNSA is currently 
providing for the advancement of fusion energy?
    Answer. Thermonuclear fusion is pursued at the Department of Energy 
and NNSA for two important and different purposes. OFES, in the Office 
of Science, is pursuing fusion science for eventual energy 
applications.
    NNSA pursues Inertial Confinement Fusion (ICF) in support of 
Stockpile Stewardship. Thermonuclear fusion is the essential process of 
all U.S. nuclear weapons. Much of SSP inertial confinement fusion 
research can provide information relevant to inertial fusion energy, so 
it can be thought of as dual use. NNSA built and operates its large 
high-energy density facilities to support the stockpile. If successful, 
ignition on the NIF will demonstrate that ICF in the laboratory is 
feasible and, as a side-benefit, will be an important advance for 
fusion energy. Other areas of the ICF program may help develop the 
fundamental science of inertial fusion energy, including research on 
direct drive and pulsed power fusion.
    NNSA requested $481.5 million in fiscal year 2011 for the ICF 
Ignition and High Yield Campaign. The ICF fiscal year 2011 budget is 
$477.6 million. We have requested $476.3 million for fiscal year 2012.
    This year NIF is focusing on experimentally optimizing the laser 
and target conditions as part of the National Ignition Campaign (NIC) 
and has made significant progress. We expect to perform full ignition 
tests in the fiscal year 2012 to 2014 window. NIF is also focusing on 
material properties under extreme conditions and on finishing up work 
to validate codes devoted to the energy balance problem.
    Question. How much additional funding would NIF require for full 
commercialization within the current framework?
    Answer. When NIF achieves ignition, it will establish the 
scientific basis for inertial confinement fusion, but will not have the 
performance required for the energy mission. The NIF was not designed 
to be converted to a prototype commercial reactor. Significant 
technical development, independent economical studies, and licensing 
processes will be required beyond the demonstration of ignition on the 
NIF for inertial fusion energy. In addition, the demonstration of 
ignition at NIF does not guarantee that this would be commercially 
viable.
    This year NIF is focusing on experimentally optimizing the laser 
and target conditions as part of the National Ignition Campaign (NIC) 
and has made significant progress. We expect to perform full ignition 
tests in the fiscal year 2012 to 2014 window. NIF is also focusing on 
material properties under extreme conditions and on finishing up work 
to validate codes devoted to the energy balance problem.
    Several approaches to achieving thermonuclear fusion are being 
pursued. In NNSA, we are pursuing indirect drive for the first 
demonstration of ignition on the NIF and polar direct drive as an 
alternate approach led by the University of Rochester. The Naval 
Research Laboratory is engaged in direct drive research with an 
alternate laser driver using a Krypton Flouride laser, and pulsed power 
fusion research is conducted at Sandia National Laboratories. In the 
Office of Science, heavy ion fusion, fast ignition, and other 
approaches are being pursued.
    DOE has asked the National Academy of Sciences (NAS) to conduct a 
review on inertial fusion energy and to make recommendations on how 
best to pursue inertial fusion energy as a long-range energy option 
after the demonstration of NIF Ignition. NAS will assess the prospects 
for generating power using inertial confinement fusion, and will 
identify scientific and engineering challenges and cost targets. We 
look forward to receiving the panel's interim report, expected in 
September 2011.
    Question. What are NNSA's goals for fusion energy in fiscal year 
2012 and beyond?
    Answer. NNSA's goal for the National Ignition Campaign (NIC) is to 
demonstrate ignition on the NIF. In fiscal year 2012 and beyond, NNSA 
will work to improve ignition performance and develop advanced ignition 
concepts and platforms that further its Stockpile Stewardship mission. 
NNSA will continue to provide peer-reviewed access to it major 
facilities (NIF, Omega, and Z), which includes work in support of 
inertial fusion energy as well as basic science. The Department will 
review the report from NAS on ICF, and use the report's findings to 
inform our decision on how to proceed with a program in inertial fusion 
energy.
    This year NIF is focusing on experimentally optimizing the laser 
and target conditions as part of the NIC and has made significant 
progress. We expect to perform full ignition tests in the fiscal year 
2012 to 2014 window. NIF is also focusing on material properties under 
extreme conditions and on finishing up work to validate codes devoted 
to the energy balance problem.
    Question. Can you detail the collaboration between NNSA and OFES?
    Answer. The main mechanism for collaboration between the OFES and 
NNSA's Inertial Confinement Fusion (ICF) program is the Joint Program 
in High Energy Density Laboratory Plasmas. High-energy-density 
laboratory plasma physics is the study of matter at extremely high 
density and temperature; it is a broad and rapidly growing area of 
research that includes ICF, laboratory astrophysics, materials 
properties under extreme conditions, and warm dense matter. Through the 
joint program, OFES and the ICF programs conduct peer-reviewed 
solicitations for basic high-energy density research and organize 
scientific workshops. In fiscal year 2011, the joint program provided 
support for 50 research awards in more than 30 institutions.
    This year NIF is focusing on experimentally optimizing the laser 
and target conditions as part of the NIC and has made significant 
progress. We expect to perform full ignition tests in the fiscal year 
2012 to 2014 window. NIF is also focusing on material properties under 
extreme conditions and on finishing up work to validate codes devoted 
to the energy balance problem.
    Question. What is the current backlog of fusion energy related 
experiments and what can be done to advance them?
    Answer. In the near term, NNSA's ICF program will concentrate on 
achieving ignition in the NIF. This is an essential step for stockpile 
stewardship, and will also contribute to developing fusion energy. 
Achieving ignition will be a great technical accomplishment and will 
establish the scientific feasibility of inertial fusion energy. The 
development of inertial fusion energy is not part of NNSA's mission 
and, as such, no backlog of experiments exists.
    This year NIF is focusing on experimentally optimizing the laser 
and target conditions as part of the NIC and has made significant 
progress. We expect to perform full ignition tests in the fiscal year 
2012 to 2014 window. NIF is also focusing on material properties under 
extreme conditions and on finishing up work to validate codes devoted 
to the energy balance problem.
    Fusion energy has proven to be a daunting and elusive goal. In 
support of this goal, however, recently NAS' Committee on Inertial 
Fusion Energy (IFE) has been asked to:
  --Assess the prospects for generating power using inertial 
        confinement fusion;
  --Identify scientific and engineering challenges, cost targets, and 
        R&D objectives associated with developing an IFE demonstration 
        plant; and
  --Advise DOE on its development of an R&D roadmap aimed at creating a 
        conceptual design for an inertial fusion energy demonstration 
        plant.
    The Department will evaluate the recommendations from the 
subcommittee before deciding how to proceed.
    Question. Where does our domestic fusion energy research stand in 
comparison to China, South Korea, and other nations?
    Answer. NNSA is the world leader in inertial confinement fusion 
research, which we primarily conduct to support Stockpile Stewardship. 
France and the United Kingdom also have strong programs in inertial 
confinement fusion to support their nuclear weapons stockpiles. France 
is building a NIF-scale laser facility named Laser Mega Joule (LMJ). 
The UK has built a smaller laser facility named Orion. The Japanese 
conduct research in inertial fusion for energy applications and have a 
modest-size laser named FIREX I. Germany conducts research in heavy ion 
fusion. The European Community has proposed the HiPER project to build 
an inertial fusion energy research program. China is active in high-
energy density physics and is building a new large laser system at a 
Government laboratory. This laser will be smaller than NIF and is not 
likely to achieve ignition. A number of countries have modest z-pinch 
pulse power programs for fusion. We are not aware of any substantial 
ICF program in Korea. Many of the countries mentioned also have 
significant magnetic energy fusion programs, and the OFES could provide 
a detailed comparison for those technologies.
    This year NIF is focusing on experimentally optimizing the laser 
and target conditions as part of the NIC and has made significant 
progress. We expect to perform full ignition tests in the fiscal year 
2012 to 2014 window. NIF is also focusing on material properties under 
extreme conditions and on finishing up work to validate codes devoted 
to the energy balance problem.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander

                       EXPORT CONTROL REGULATIONS

    Question. National Nuclear Security Administration (NNSA) is 
responsible for implementation of export control regulations under 10 
CFR 810 which authorizes transfer of peaceful nuclear technology. The 
number of specific authorizations issued by Department of Energy under 
10 CFR 810 has roughly tripled over the past 5 years and industry has 
recently noted that the amount of time required for issuing these 
authorizations has increased significantly as well. These delays have a 
negative impact on the ability for U.S. firms to compete in the global 
nuclear marketplace currently estimated to exceed $50 billion per year.
    While industry has remarked on the professionalism and dedication 
of NNSA staff, is the agency sufficiently staffed to respond the 
increasing number inquiries and authorizations requested?
    Answer. Pursuant to section 57b of the Atomic Energy Act, the 
Secretary of Energy must authorize all U.S. persons who wish to engage 
directly or indirectly in the production of special nuclear material 
outside the United States, provided that the assistance is not inimical 
to the interests of the United States. The Secretary of Energy's 
authority is nondelegable. The implementing regulation for section 57b 
of 10 CFR part 810 also requires DOE to address eight specific 
questions to determine whether proposed assistance raises proliferation 
concerns. Besides the analysis of the eight specific questions in the 
regulation, the Department also requests via the State Department, 
foreign government assurances from the recipient's government that 
state that the assistance will be for peaceful, nonmilitary purposes, 
will not be retransferred without U.S. consent, and that the resulting 
nuclear material will be under IAEA safeguards. These assurances are 
consistent with the requirements of section 123 of the Atomic Energy 
Act and the nuclear suppliers group.
    Over the past few years, as the global nuclear industry has seen 
resurgence in business opportunities, the number of part 810 
applications has increased accordingly. In 2007, the Department 
authorized 1 specific authorization; in 2010, the Department authorized 
15. In addition to an increase in the number of applications, the 
complexity of the applications has also increased as nuclear commerce 
has become more globalized. Each specific authorization requires 
approval by the Secretary and must include an in-depth technical and 
policy analysis addressing the eight questions in the regulation. 
However, a vast amount of nuclear commerce that takes place with our 
close trading and nonproliferation partners takes place under general 
authorization provisions of 10 CFR part 810 and does not require the 
same intensive analysis by the Department's staff. The Department has 
recognized the increase in part 810-related activities by U.S. industry 
and has brought on qualified and experienced staff to help adjudicate 
these applications. The Department believes that it has the staff in 
place to address the 810 applications that it currently receives and 
has plans for streamlining its review processes to enable timelier 
responses to industry's applications.
    Question. If so, why are these delays increasing and what plan does 
DOE have in place to make the 810 process more efficient?
    Answer. One significant reason for the delays has been the lack of 
prompt government assurances from our foreign partners. Some of the 
assurances, especially from China and India, have taken more than 18 
months to obtain. Without these assurances the Secretary would have 
been unable to make the legally required noninimicality finding, and 
the United States would not have been acting in accordance with the 
nuclear suppliers group guidelines. We are working with the State 
Department and applicants at the beginning of the part 810 process to 
identify where potentially long delays may arise. We are also working 
to structure applications in such a way that will enable us to 
efficiently and effectively authorize the assistance within the bounds 
of U.S. law and policy. We have also instituted new policies, such as 
the ``deemed export'' process through which we have been able to find 
ways to satisfy the requirements of the Atomic Energy Act for companies 
that wish to employ foreign nationals in the United States, thus 
alleviating one class of applications, which we had been unable to 
process at all in the past.
    Question. If not, what process improvements does DOE plan to put in 
place to make the 810 process more efficient?
    Answer. The Department is also looking at how the nuclear industry 
does business in a globalized world and is reviewing potential 
amendments to the part 810 regulation to reflect today's realities. The 
part 810 regulation has remained essentially the same for more than 25 
years. It was designed and implemented at a time in the U.S. nuclear 
industry's history that is vastly different from how industry works 
today or will work in the future. We recognize that the part 810 
regulations need to be more user-friendly and consistent with current 
U.S. nonproliferation policies.

           NAVAL REACTORS FACILITY, IDAHO NATIONAL LABORATORY

    Question. The Naval Reactors Facility (NRF), located at the Idaho 
National Laboratory (INL), is responsible for fuels and materials 
research and development, and processing, analyzing, and storing 
reactor cores that are removed from aircraft carriers or submarines at 
refueling and decommissioning. NRF's location within the laboratory 
boundaries enables the Navy to utilize the laboratory's capabilities, 
such as the Advanced Test Reactor and the Idaho Nuclear Technology and 
Engineering Center to fulfill mission requirements.
    Please describe:
  --which non-NNSA facilities at INL are used by the Naval Reactors 
        Program;
  --the type of work performed for the program at each facility, and 
        whether it is performed by the Navy or others;
  --a comparison of the work at each facility performed by or for the 
        Navy to the work performed by all other users in the aggregate, 
        expressed as a percentage for each facility; and
  --whether each facility is essential to the mission of the program.
    Answer. Naval reactors uses the following facilities at INL:
Advanced Test Reactor (ATR)
    Naval reactors utilizes ATR for materials research and fuel system 
development. Naval Reactors Facility (NRF) at INL prepares ``test 
trains'' that contain materials destined for irradiation. The NRF ships 
those test trains to ATR. The ATR personnel receive the test trains, 
insert them into the reactor, operate the reactor, remove the test 
trains from the reactor, and ship the test trains back to NRF. The data 
generated at ATR is needed to support the operational fleet, support 
reactors currently being designed, and develop fuel and poison systems 
for future reactors. For example, testing currently underway to support 
the newly designed, reduced-cost VIRGINIA forward fit (VAFF) core 
procurement will provide data needed to develop operational limits, 
casualty procedures, refueling limits, and shipping requirements that 
ensure safe and efficient operation of our nuclear plants at sea.
    In fiscal year 2012, the Naval Nuclear Propulsion Program (NNPP) 
will provide $64 million to ATR, representing approximately 62 percent 
of ATR operations.
    ATR is essential to the NNPP mission.
Idaho Nuclear Technology and Engineering Center (INTEC)
    Some naval spent nuclear fuel is currently stored at INTEC. The 
INTEC personnel are currently preparing that fuel for dry storage, 
loading it into uniquely designed baskets, loading those baskets into 
shipping containers, and shipping those containers back to NRF. INTEC 
is also preparing and shipping naval transuranic waste for disposal at 
the Waste Isolation Pilot Plant. The INTEC facility is needed to 
support NNPP commitments to the State of Idaho in the 1995 Settlement 
Agreement and the 2008 Settlement Addendum. Failure to meet these 
commitments will potentially prevent NNPP from receiving fuel at NRF, 
which would prevent NNPP from refueling and defueling nuclear powered 
warships.
    In fiscal year 2012, NNPP will provide $22.3 million of INTEC 
funding, which represents approximately 21 percent of INTEC operations.
    INTEC is essential to the NNPP mission.
Radioactive Waste Management Complex (RWMC)
    NNPP disposes of remote-handled low-level radioactive waste (RH-
LLW) at RWMC. Operations at NRF will continue to produce these wastes 
indefinitely. NNPP generates approximately one-half of the RH-LLW that 
is disposed at RWMC. RWMC, and the planned replacement, are essential 
to the NNPP mission. The RWMC is the only cost-effective disposal path 
for this waste. Without a disposal path, waste will collect within the 
ECF water pool and eventually preclude spent-fuel processing 
operations. Spent-fuel processing is essential to unload shipping 
containers that support refueling and defueling nuclear warships and 
meeting NNPP commitments to the State of Idaho in the 1995 Settlement 
Agreement and the 2008 Settlement Addendum. If RWMC suspended 
operations, Naval Reactors would be forced to dispose of low-level 
radioactive waste off-site, at a significantly higher cost.
    NNPP will contribute to the construction costs for a planned 
replacement facility.
    The work done at RWMC and the work that will be done at RMWC's 
replacement is essential to NNPP mission.
Materials and Fuels Complex (MFC)
    NNPP occasionally contracts examination of expended core and ATR 
test specimens to MFC when detailed analytical chemistry services are 
required to obtain the needed data. These examinations require use of 
the MFC hot cell facilities and analytical chemistry laboratories. 
These examinations are essential to the NNPP mission. There are other 
analytical chemistry laboratories (e.g., ORNL) that could perform these 
examinations; however, shipment costs would be significantly higher. 
NNPP plans to ship specimens to MFC for analytical chemistry 
evaluations in 2015. In the future, the NNPP plans to make use of MFC 
capabilities (currently in development) to perform focused ion beam 
machining, transmission electron microscopy, and atom probe evaluations 
of irradiated material. Using MFC capabilities eliminates the need for 
NNPP to develop these capabilities at NRF or ship the materials for 
examination offsite.
    The percentage of MFC's work that supports naval work varies from 
year to year.
    The work done at MFC is essential to the NNPP mission.
    NNPP also subcontracts many site services (e.g., fire department 
and emergency services) to INL contractors that require use of various 
INL facilities. The total value of these services is $17 million in 
fiscal year 2011. In addition to this, in fiscal year 2011, NNPP 
initiated a permanent annual budget transfer of $1.5 million for 
security and safeguards at INL. These services are essential to support 
operations at NRF. If INL were not able to provide these services, the 
NNPP would need to develop and fund these capabilities independently.
    Question. Please describe the effect that suspending operations at 
the facilities described in question one would have on NRF and the 
Navy's ability to perform mission work.
    Answer. Suspending operations at each of the facilities would have 
the following impacts:
      ATR.--If ATR suspended operations, Naval reactors would be unable 
        to attain the information required to resolve problems as they 
        arise in the operating fleet, unable to develop or improve 
        future fuel systems and materials applications, and unable to 
        develop the life-of-ship core required for the Ohio Replacement 
        SSBN.
      INTEC.--If INTEC suspended operations, Naval reactors would be 
        unable to meet the terms of its agreements with the State of 
        Idaho, placing in jeopardy the ability to refuel and defuel 
        nuclear powered warships.
      RWMC.--If RWMC suspended operations, Naval reactors would be 
        forced to dispose of low-level radioactive waste offsite, at a 
        significantly higher cost.
      MFC.--If MFC suspended operations, Naval reactors would be forced 
        to contract for equivalent examinations offsite at 
        significantly higher costs.
    Question. Please describe in detail the amounts and sources (e.g. 
DOD or DOE) of funding the program contributes for the use of the 
facilities described in question 1, including any funding or transfers 
provided for INL's safeguards and security program.
    Answer.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                           Fiscal Year
                        Facility                           2012 funding
------------------------------------------------------------------------
ATR....................................................         \1\ 64.0
INTEC..................................................         \2\ 22.0
RWMC...................................................          \1\ 0.8
MFC....................................................  ...............
Site services (e.g. mail, EMS, fire)...................         \3\ 17.0
Safeguards and Security................................          \4\ 1.5 
------------------------------------------------------------------------
\1\ DOE.
\2\ Navy.
\3\ DOE fiscal year 2011.
\4\ Permanent annual budget transfer.

                     SMALL MODULAR REACTORS PROGRAM

    Question. The Navy has a unique expertise in designing, building, 
and maintaining modular reactors or use on their vessels, in addition 
to an impeccable safety record.
    Given this expertise, could you describe what role, if any, the 
Naval Reactors program will (or could) play in DOE's planned Small 
Modular Reactor program?
    Answer. Since 1955, the Naval Nuclear Propulsion Program (NNPP) has 
provided militarily effective nuclear propulsion plants and ensured 
their safe, reliable, and long-lived operation. NNPP's reactors are 
designed to meet requirements associated with their military-unique 
application, and are not suitable for commercial use. However, there 
are areas for cooperation and possible technology transfer between 
NNPP, other Government agencies, and industry. NNPP and the Office of 
Nuclear Energy will continue to seek opportunities to collaborate and 
share information with each other and other appropriate parties to the 
mutual benefit of all organizations.
    One example of interagency collaboration occurred in 2009 when NNPP 
supported the Nuclear Regulatory Commission's (NRC) ``Report on 
Internal Safety Culture''. The exchange provided NRC with potential 
initiatives to increase awareness of and improve the agency's internal 
safety culture and to identify best practices currently used across the 
nuclear industry. Specifically, NRC benchmarked NNPP to gather 
information about practices, programs, and processes that could be 
considered as best practices. As part of this process, NNPP offered 
valuable insights and perspective from its extensive knowledge and 
experience in this crucial area. Similar collaboration with the Small 
Modular Reactor program may be possible.
    As the Small Modular Reactor program moves forward, NNPP and the 
Office of Nuclear Energy will continue to seek areas to cooperate to 
the mutual benefit of each organization and taxpayers, while protecting 
sensitive military technology.
                                 ______
                                 
             Question Submitted by Senator Mitch McConnell

                          URANIUM DOWNBLENDING

    Question. What is the most current estimate for the amount of down-
blended uranium that NNSA plans to down blend in 2012? Are future 
years' estimates similar in size? What percent of the 10 percent cap 
does that consume?
    Answer. In fiscal year 2012, NNSA's contractors will down blend 
approximately 8 metric tons of highly enriched uranium (HEU). Because a 
majority of the resulting low-enriched uranium (LEU) will be retained 
in two LEU inventories, only the fraction of the material that will be 
used to compensate the down-blending contractors will enter the market 
in fiscal year 2012. The estimated net quantity of LEU that will enter 
the market is equivalent to 281 metric tons of natural uranium, or 1.4 
percent of domestic demand for natural uranium (14 percent of the 10 
percent guideline). Quantities comparable to those above are expected 
to prevail for the next couple of years.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. Thank you very much. Mr. D'Agostino, Ms. 
Harrington, Dr. Cook, and Admiral Donald, thank you very much 
for your testimony today. I will be talking with you, Mr. 
D'Agostino. Thank you very much.
    This hearing is recessed.
    Mr. D'Agostino. Thank you.
    Dr. Cook. Thank you very much.
    [Whereupon, at 3:35 p.m., Wednesday, May 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
